March 3, 2021
Honorable Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543-001
RE:

Dantazias Raines v. Georgia
Case No. 20-6775

Dear Mr. Harris:
Respondent State of Georgia respectfully requests an extension of time to
respond to the petition for a writ of certiorari docketed on November 25, 2020. The
brief in response is currently due on March 18. Due to the press of other matters,
including multiple briefs due in Georgia and federal appellate courts, Respondent
requests a 30-day extension to and including April 19, 2021.
Sincerely,
/s/Andrew A. Pinson
Andrew A. Pinson
Solicitor General, State of Georgia
cc:

Mark Aaron Loudon-Brown
Counsel for Petitioners

